 The University of the Virgin Islands’ Administration of Title 

IV Student Financial Assistance Programs Needs Improvement




                             FINAL AUDIT REPORT





                                      ED-OIG/A02-E0003 

                                         April 2005 





Our mission is to promote the efficiency,                  U.S. Department of Education
effectiveness, and integrity of the                        Office of Inspector General
Department’s programs and operations                       New York Audit Region
                                                           Boston Area Office
                              NOTICE

Statements that managerial practices need improvements, as well as
other conclusions and recommendations in this report, represent the
opinions of the Office of Inspector General. Determinations of
corrective action to be taken will be made by the appropriate
Department of Education officials.

In accordance with the Freedom of Information Act (5 U.S.C. § 552),
reports issued by the Office of Inspector General are available, if
requested; to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.
                                U.S. DEPARTMENT OF EDUCATION

                                      OFFICE OF INSPECTOR GENERAL 

                                           75 Park Place, 12th Floor 

                                          New York, New York 10007 


                                                    April 8, 2005


La Verne Ragster, Ph.D.
President
University of the Virgin Islands
2 John Brewster’s Bay
St. Thomas, Virgin Islands 00802

Dear Dr. Ragster:

Enclosed is our final audit report, Control Number ED-OIG/A02-E0003, entitled The University
of the Virgin Islands’ Administration of Title IV Student Financial Assistance Programs Needs
Improvement. This report incorporates the comments you provided in response to the draft report.
 If you have any additional comments or information that you believe may have a bearing on the
resolution of this audit, you should send them directly to the following Education Department
official, who will consider them before taking final Departmental action on this audit:

                                         Theresa Shaw
                                         Chief Operating Officer
                                         Federal Student Aid
                                         U.S. Department of Education
                                         Union Center Plaza
                                         830 First Street, NE
                                         Washington, DC 20202

It is the policy of the U. S. Department of Education to expedite the resolution of audits by
initiating timely action on the findings and recommendations contained therein. Therefore,
receipt of your comments within 30 days would be appreciated.

In accordance with the Freedom of Information Act (5 U.S.C. § 552), reports issued by the Office
of Inspector General are available to members of the press and general public to the extent
information contained therein is not subject to exemptions in the Act.

                                                    Sincerely,

                                                               /s/

                                                    Daniel P. Schultz
                                                    Regional Inspector General
                                                     for Audit
Enclosure



            Our mission is to promote the efficiency, effectiveness, and integrity of the Department’s programs and operations.
                                                    TABLE OF CONTENTS 



                                                                                                                                         Page

EXECUTIVE SUMMARY ...........................................................................................................1 


AUDIT RESULTS

    Finding 1 - UVI deleted academic records needed to demonstrate the institution 

                provided Title IV funds to eligible students.......................................................... 4 

                Recommendations ................................................................................................. 5 

                UVI Comments.......................................................................................................5 



    Finding 2 - UVI failed to administer the return of unearned Title IV funds ............................ 5 

                Recommendations ................................................................................................. 7 

                UVI Comments...................................................................................................... 8 

                OIG Response........................................................................................................ 8 


    Finding 3 - UVI did not identify students who failed to follow official withdrawal 

                procedures and may have been eligible for return of unearned Title IV 

                Funds ..................................................................................................................... 8 

                Recommendations ................................................................................................. 8 

                UVI Comments...................................................................................................... 9 

                OIG Response.........................................................................................................9 


    Finding 4 - UVI did not always have the documentation required for students who 

                received administrative withdrawals ......................................................................9 

                Recommendations ............................................................................................... 10 

                UVI Comments.................................................................................................... 10 


    Finding 5 - UVI did not properly monitor credit balances ......................................................10 

                Recommendations ............................................................................................... 11 

                UVI Comments.................................................................................................... 12 


    Finding 6 - UVI’s Satisfactory Academic Progress Policy was not uniformly applied ..........12 

                Recommendations ............................................................................................... 13 

                UVI Comments.................................................................................................... 13 





                                                                     i
     Finding 7 - The Registrar’s Office did not report student status changes in an 

                 accurate or timely fashion ....................................................................................13 

                 Recommendation..................................................................................................14 

                 UVI Comments.....................................................................................................14 


     Finding 8 - UVI did not comply with established due dates for the submissions of its 

                 Single Audit Reports and is not financially responsible ......................................14 

                 Recommendations ................................................................................................15 

                 UVI Comments.....................................................................................................16 


BACKGROUND ..........................................................................................................................17 


OBJECTIVES, SCOPE AND METHODOLOGY ...................................................................17 


STATEMENT OF INTERNAL CONTROLS ......................................................................... 18


ATTACHMENT A: UVI’s Response to the Draft Report...........................................................19 





                                                                  ii
University of the Virgin Islands                                                         Final Report 

Administration of Title IV                                                          ED/OIG A02-E0003



                                    EXECUTIVE SUMMARY


The purpose of our audit was to determine whether the University of the Virgin Islands (UVI)
administered the student financial assistance programs in compliance with Title IV of the Higher
Education Act (HEA) and applicable regulations. Specifically, we evaluated UVI’s compliance
with Title IV regulations governing return of Title IV funds, cash management, student credit
balances, and student eligibility.

UVI did not always calculate correctly and pay timely returns of Title IV, thus failing to meet the
reserve fund standard, nor did it correctly manage cash, as it was improperly maintaining student
credit balances. Student eligibility became an issue when UVI deleted academic records, failed
to accurately or consistently track student withdrawals, and did not consistently apply
satisfactory academic progress standards. We also determined that UVI is not financially
responsible because it failed to timely submit required Single Audits. Based on the significance
of these findings, we concluded that UVI did not always meet the administrative capability
standards for Title IV programs. We noted the following areas of non-compliance:

       UVI disbursed $9,161 in Title IV funds to six students whose academic records were
        deleted for specific semesters. In four of the six cases, UVI disbursed a total of $6,665 in
        Title IV funds directly to the students.

       UVI failed to administer the return of Title IV. UVI did not always: identify students
        eligible for returns, return Title IV funds, calculate returns correctly, or return the funds
        timely.

       UVI did not have a system in place to identify and report to the Business Office students
        who withdrew without following established withdrawal procedures. Fifty students
        received a total of $121,193 in Title IV funds although they failed all courses. Another
        19 students had failing grades and withdrew from all courses, but received a total of
        $38,220. UVI may have been required to return unearned Title IV funds for some of
        these students.

       UVI could not provide documentation supporting the administrative withdrawal of seven
        students who received Title IV funds totaling $22,117. Further, UVI may have been
        required to return unearned Title IV funds for these seven students who received the
        administrative withdrawals.

       UVI did not properly monitor, and improperly maintained, credit balances on student
        accounts. Three students still had Title IV credit balances and another 54 students had
        non-Title IV credit balances. UVI also used $17,305 of student credit balances to reduce
        students’ prior award years’ expenses, and $15,959 in credit balances to reduce
        subsequent years’ costs.

       UVI’s Satisfactory Academic Progress Policy was not uniformly applied. As a result, we
        had difficulty assessing satisfactory academic progress.


                                                   1
University of the Virgin Islands                                                        Final Report
Administration of Title IV                                                         ED/OIG A02-E0003



       The Registrar’s Office did not timely or accurately report student status for three of the
        four student loan recipients who had graduated.

       UVI did not have a process in place to assure compliance with deadlines established by
        federal law for submission of Single Audit reports. As a result, it was not financially
        responsible.

To correct these deficiencies, we recommend that the Chief Operating Officer for Federal
Student Aid (FSA) require UVI to:

       Develop controls to ensure that students taking zero credits do not receive Title IV.
        Return $9,161 to U.S. Department of Education (ED) for the six students who received
        Title IV but did not have any documentation to support that they began attendance for the
        corresponding semester.

       Develop and implement policies and procedures to identify students that withdraw, and
        to assure that returns of unearned Title IV are calculated accurately and paid timely to
        ED. Require UVI to calculate returns of Title IV for the students for whom UVI did not
        calculate or miscalculated returns of Title IV and return those funds to ED.

       Develop and implement policies, procedures, and management controls to identify 

        students who do not officially notify the school of their withdrawal, and determine 

        whether returns of unearned Title IV funds are due ED. 


       Develop and implement policies and procedures to identify students who received
        administrative withdrawals and determine whether unearned Title IV funds need to be
        returned to ED.

       Establish procedures to ensure that credits on students’ accounts are identified and paid
        to students timely and that credit balances are used only to reduce prior award year
        expenses totaling less than $100.

       Implement a Satisfactory Academic Progress Policy in a uniform manner.

       Develop and implement control and procedures to assure accurate and timely reporting of
        changes in students’ enrollment statuses.

       Establish processes that ensure the timely and acceptable completion of the annual Single
        Audit.

Because of UVI’s failure to submit Single Audits in a timely manner, the Chief Operating
Officer for FSA, should (1) take action to allow UVI to continue participation in the Title IV
programs only under the provisional certification requirements; or (2) take appropriate action
under 34 C.F.R. Subpart G to fine the institution, or to limit, suspend, or terminate its eligibility.


                                                  2

University of the Virgin Islands                                                    Final Report
Administration of Title IV                                                     ED/OIG A02-E0003


In its response to the draft report, UVI concurred with our findings and stated that it will work
with FSA on the recommendations. UVI provided additional student documentation in response
to Findings 2 and 3. The response, excluding student information, is included as Attachment A.




                                                3

University of the Virgin Islands                                                           Final Report 

Administration of Title IV                                                            ED/OIG A02-E0003



                                               AUDIT RESULTS

UVI did not always calculate correctly and pay timely returns of unearned Title IV funds, thus
failing to meet the reserve fund standard. Also, UVI did not correctly manage cash, as it was
improperly maintaining student credit balances and misapplying them to institutional charges for
other periods. Student eligibility became an issue when UVI deleted academic records, did not
systemically identify student withdrawals, and applied inconsistently the satisfactory academic
progress standards. We also determined that UVI is not financially responsible.

Finding 1: UVI deleted academic records needed to demonstrate the institution provided
           Title IV funds to eligible students


UVI could not document that the students attended school because the academic files for those
students were deleted for the semesters in question. UVI officials indicated that one former UVI
employee had deleted the records. UVI disbursed $9,161 in Title IV funds to six students, but it
could not document that the students began attendance. The regulations at 34 C.F.R. § 668.211
require that:

          (a)(1) If a student officially withdraws, drops out, or is expelled before his or her
          first day of class of a payment period, all funds paid to the student for that payment
          period for institutional or noninstitutional costs under the Federal Pell Grant,
          FSEOG [Federal Supplemental Educational Opportunity Grants], and Federal
          Perkins Loan programs are an overpayment. (2) The institution shall return that
          overpayment to the respective title IV, HEA programs in the amount that the
          student received from each program.
          (b) For purposes of this section, the Secretary considers that a student drops out
          before his or her first day of class of a payment period if the institution is unable to
          document the student's attendance at any class during the payment period.

Similarly, 34 C.F.R. § 685.303(b)(3) for the Direct Loan Program provides that:

          If . . . the school is unable for any other reason to document that the student
          attended school during that period, the school shall notify the Secretary, within 30
          days of the date described in Sec. 685.305(a), of the student's withdrawal,
          expulsion, or failure to attend school, as applicable, and return to the Secretary--
           (i) Any loan proceeds credited by the school to the student's account; and
           (ii) The amount of payments made by the student to the school, to the extent that
          they do not exceed the amount of any loan proceeds disbursed by the school to the
          student.

UVI disbursed $9,161 to six students who did not have any courses listed for the corresponding
semester. In four of the six cases, UVI disbursed a total of $6,665 in Title IV funds directly to
1
    Unless otherwise noted, all C.F.R. citations are to the July 1, 2002, volume.



                                                             4
University of the Virgin Islands                                                       Final Report
Administration of Title IV                                                        ED/OIG A02-E0003


the students. This occurred because UVI lacked a policy or procedure that would ensure that
students who received Title IV funds actually began attendance.

As a result, UVI paid $9,161 in Title IV funds to six students who appeared not to have attended
UVI during the corresponding semester. In one case, the Chancellor’s Office provided support
that the student requested an administrative withdrawal for the semester in question. Although
the request was approved, it was never processed.

Recommendations

We recommend that the Chief Operating Officer for FSA require UVI to:

1.1 	   Develop and implement policies and procedures to ensure that documentation is available
        to support student attendance and that Title IV funds are returned to the appropriate
        programs when students fail to attend; and

1.2 	   Return $9,161 in Title IV funds for the six students without documentation to support
        that they attended during the corresponding payment period.

UVI Comments – UVI concurred with the finding and stated that it will work with FSA on the
recommendations. UVI provided corrective actions which should be considered by FSA in
resolving this finding.

Finding 2: UVI failed to administer the return of unearned Title IV funds

UVI did not always identify students eligible for a return of unearned Title IV funds, calculate
the amounts to be returned correctly, return all Title IV funds due, or return the funds in a timely
manner. In part, this occurred because UVI lacked policies or procedures that would ensure that
students who received Title IV funds were continuously enrolled in and attending their courses.
Also, the coordination between the office responsible for identifying withdrawn students and the
office responsible for return of Title IV calculations was not adequate.

UVI failed to identify all students potentially eligible for a return of unearned Title IV funds

According to 34 C.F.R. § 668.22 (a)(1), “When a recipient of title IV grant or loan assistance
withdraws from an institution during a payment period or period of enrollment in which the
recipient began attendance, the institution must determine the amount of title IV grant or loan
assistance that the student earned as of the student's withdrawal date . . . .”

UVI’s procedures required students who wanted to withdraw from UVI to complete a form in the
Registrar’s Office. The Registrar’s Office would then forward a copy of the withdrawal form to
the Business Office, which was responsible for calculating the return of Title IV. During award
years 2000-2001, 2001-2002, and 2002-2003, according to the Business Office listing, 90
students withdrew during a semester, and received Title IV funds. A comparison of the
withdrawn students listing provided by the Business Office and the Registrar’s transcript files


                                                 5

University of the Virgin Islands                                                       Final Report
Administration of Title IV                                                        ED/OIG A02-E0003


revealed discrepancies. Three students who received Title IV funds and withdrew from all
courses, according to records in the Registrar’s office, did not appear on the Business Office’s
listing. These three students received $9,626 in Title IV funds and could have been eligible for a
return of unearned Title IV funds. UVI failed to record the withdrawal dates to document the
amount of earned and unearned Title IV funds for these students.

In addition, UVI did not calculate or return Title IV funds for 16 students who appeared on
UVI’s listing of 90 students who withdrew. As a result, UVI needs to return approximately
$9,930 for these 16 students.

Failure to calculate the return of unearned Title IV funds correctly

In order to calculate a return of unearned Title IV funds, an institution must calculate the
percentage of the payment period or period of enrollment completed. The regulations at 34
C.F.R. § 668.22(f)(1)(i) provide that for institutions using credit hours, the percentage completed
is determined “. . . by dividing the total number of calendar days in the payment period or period
of enrollment into the number of calendar days completed in that period as of the students
withdrawal date.” The regulations at 34 C.F.R. § 668.22(f)(2)(i) further provide that the “. . .
total number of calendar days in a payment period or period of enrollment includes all days
within the period, except that scheduled breaks of at least five consecutive days are excluded
from the total number of calendar days . . . .”

From UVI’s listing of 90 students who withdrew, UVI provided the actual calculation of the
return of unearned Title IV funds for 54 students. These calculations revealed that UVI often
used the incorrect withdrawal dates, as well as, incorrect semester starting and ending dates.
Without the correct beginning, end, and withdrawal dates, it is not possible to accurately
determine the calendar days in the payment period or period of enrollment or the percentage
completed. Further, UVI did not always exclude the spring break period to determine the total
number of days enrolled. As a result, 43 of the 54 returns of Title IV were incorrectly
calculated.

UVI did not always return the correct amount of unearned Title IV funds based on its calculation

According to 34 C.F.R. § 668.22 (e)(4)), “The unearned amount of title IV assistance to be
returned is calculated by subtracting the amount of title IV assistance earned by the student . . .
from the amount of title IV aid that was disbursed to the student . . . .”

UVI failed to return the entire amount of Title IV that needed to be returned based on its return
of Title IV calculations. This occurred because of clerical errors. For nine of the 54 calculations
that UVI provided, UVI did not return $2,150 of unearned Title IV funds as stated on the
calculation forms.




                                                  6

University of the Virgin Islands                                                         Final Report
Administration of Title IV                                                          ED/OIG A02-E0003


Return of unearned Title IV funds was untimely

The regulations at 34 C.F.R. § 668.22 (e)(4)) state, “An institution must return the amount of
title IV funds for which it is responsible . . . as soon as possible but no later than 30 days after
the date of the institution’s determination that the student withdrew . . . .”

The financial responsibility regulations at 668.173(c)(1) [2004] provide that an institution does
not meet the requirements of the refund reserve standard “. . . if, in a compliance audit conducted
by . . . the Office of Inspector General, the auditor or reviewer finds – (i) In the sample of student
records audited or reviewed that the institution did not return unearned title IV, HEA program
funds with the timeframes [required] for 5% or more of the students in the sample.”

When an institution is not in compliance with the refund reserve standards, 34 C.F.R. §
668.173(d) [2004] requires the institution to “. . . submit an irrevocable letter of credit to the
Secretary . . . .” in an amount equal to 25 percent of the unearned funds the institution should
have returned during its last fiscal year.

UVI did not always return Title IV for students who withdrew from a semester in a timely
manner. From the 54 students who withdrew and had a return of unearned Title IV funds due,
49 were not returned within the required timeframe. These returns were from 1 to 221 days late.
As of February 6, 2004, two returns had not been made.

Recommendations

We recommend that the Chief Operating Officer for FSA to require UVI to:

2.1 	   Develop and implement policies and procedures to ensure that withdrawn students are
        identified and that returns of Title IV are calculated accurately and returned to ED. The
        policies should ensure adequate coordination between the office responsible for
        identifying withdrawn students and the office responsible for calculating returns of Title
        IV;

2.2 	   Calculate and pay imputed interest costs for the unearned Title IV funds that were not
        returned to ED;

2.3 	   Recalculate the Title IV returns that were calculated incorrectly for award years 2000
        through 2003, and make the appropriate adjustments;

2.4 	   Return the additional $2,150 of Title IV funds for the nine returns where the incorrect
        amounts were returned;

2.5 	   Post an irrevocable letter of credit as required under 34 C.F.R. 668.173(d); and

2.6 	   Develop and implement policies and procedures to ensure that Title IV returns are made
        within the 30-day required time frame and correctly reported to ED.


                                                   7
University of the Virgin Islands                                                          Final Report
Administration of Title IV                                                           ED/OIG A02-E0003


UVI Comments – With one exception, UVI concurred with the finding and stated that it will
work with FSA on the recommendations. UVI provided documentation that one of four students
who received Title IV funds and withdrew from all courses did receive a return of Title IV. UVI
also provided corrective actions which should be considered by FSA in resolving this finding.

OIG Response – The student in question did not appear on the Business Office’s listing.
However, we did revise the finding to reflect the documentation provided for this student.

Finding 3: UVI did not identify students who failed to follow official withdrawal
procedures and may have been eligible for return of unearned Title IV funds

UVI did not have a system in place to identify students who withdrew unofficially. The
regulations at 34 C.F.R. § 668.22(c)(1)(iii) provide that, “ . . . at an institution that is not required
to take attendance, the student’s withdrawal date is . . . [i]f the student ceases attendance without
providing official notification to the institution of his or her withdrawal . . . the mid-point of the
payment period (or period of enrollment, if applicable) . . . .”

Fifty students received a total of $121,193 in Title IV funds and failed all courses. In the
absence of documentation to the contrary, the Department considers these students as having
withdrawn from the institution. Another 19 students, who had failing grades and withdrew from
all courses, received a total of $38,220. Some of these students may have been eligible for a
return of unearned Title IV funds depending on when they withdrew.

UVI did not have a written policy requiring professors, upon submission of grade rosters, to
indicate why a student received a failing grade. Students who received failing grades for their
classes stopped attending classes, never attended, or did not earn a passing grade. However, no
process existed to determine whether these students should have been considered withdrawals
from UVI and whether they were due a return of Title IV. This included students who received
all failing grades or failing grades and withdrawals for all courses.

From the transcript files and listing of all Title IV recipients provided by UVI, we identified 50
students who failed all courses, and 19 students who had failing grades and withdrawals for all
courses. These students ceased attendance without notifying the school, but UVI had not
determined whether the students had actually withdrawn or failed their courses and were given
failing grades after they stopped attending. If their status cannot be determined, then UVI must
treat the student’s withdrawal date as the midpoint of the enrollment period, and return 50
percent of $159,413, or $79,707 in Title IV funds disbursed to these students.

Recommendations

We recommend that the Chief Operating Officer for FSA instruct UVI to:

3.1 	   Develop and implement policies and procedures to identify students who do not officially
        notify the school of their withdrawal, and determine whether a return of unearned Title
        IV funds is required; and


                                                   8
University of the Virgin Islands                                                         Final Report
Administration of Title IV                                                          ED/OIG A02-E0003



3.2 	   Return $79,707 in Title IV funds, unless UVI can document different last dates of
        attendance and return unearned Title IV funds due under the new calculations.

UVI Comments - With one exception, UVI concurred with the finding and stated that it will
work with FSA on the recommendations. UVI provided documentation that 2 of the 52 students
did not receive all failing grades during the semesters in question.

OIG Response - We revised the finding to reflect the documentation provided for the two
students.

Finding 4: UVI did not always have documentation required for students who received
administrative withdrawals

Students who received administrative withdrawals may have been due a return of Title IV funds.
For 7 of 17 students granted administrative withdrawals, UVI had no documentation to support
its approvals, nor did it approve the administrative withdrawals in a timely manner. This
occurred because UVI did not have a system in place to identify and report students who
received administrative withdrawals to the Business Office. As a result, UVI could not
document the amount of earned and unearned Title IV funds for seven students who were
administratively withdrawn and received $22,117 in Title IV funds.

The regulation 34 C.F.R. § 668.22(c)(1)(iv) states

        [T]he student's withdrawal date is . . . [i]f the institution determines that a student
        did not begin the institution's withdrawal process or otherwise provide official
        notification (including notice from an individual acting on the student's behalf) to
        the institution of his or her intent to withdraw because of illness, accident,
        grievous personal loss, or other such circumstances beyond the student's control,
        the date that the institution determines is related to that circumstance . . . .

According to UVI’s policies, an administrative withdrawal could be given after mid-semester,
but only in unusual circumstances, such as illness. The Chancellor would have to approve a
student’s request for a late withdrawal. Students are required to provide documentary evidence
in support of the request for administrative withdrawal. Applications will not be accepted after
the last day of that semester’s instruction.

Seventeen students received administrative withdrawals from July 1, 2000 through June 30,
2003. For 7 of the 17 students, the Chancellor and the Registrar could not provide
documentation to support the administrative withdrawals. These seven students received a total
of $22,117 in Title IV for the semesters in question. UVI neither assured that administrative
withdrawal approvals were documented or always timely, nor did it determine whether the
students were due return of unearned Title IV funds.
Despite UVI’s requirement that no withdrawals could be requested after the last day of class, one
student requested an administrative withdrawal on August 1, 2001, for the fall 2000 semester.


                                                   9

University of the Virgin Islands                                                         Final Report
Administration of Title IV                                                          ED/OIG A02-E0003


The Chancellor approved the administrative withdrawal 481 days after the semester ended.
Another student had her request approved 145 days after the semester’s end.

Recommendations

We recommend that the Chief Operating Officer for FSA require UVI to:

4.1 	 Develop and implement policies and procedures to timely process administrative
      withdrawal requests and determine whether unearned Title IV funds should be returned to
      ED. This should include a appropriate notification by the Chancellor to the Registrar,
      Financial Aid, and the Business offices; and

4.2 	 Provide the necessary documentation supporting the administrative withdrawals for the
      seven students who received $22,117 in Title IV funds, and determine whether any
      unearned Title IV funds should be returned to ED. If UVI cannot determine the
      withdrawal date, the students should be treated as unofficial withdrawals and UVI should
      return 50 percent of the amount of Title IV aid each student received ($11,059).

UVI Comments - UVI concurred with the finding and stated that it will work with FSA on the
recommendations. UVI provided corrective actions which should be considered by FSA in
resolving this finding.

Finding 5: UVI did not properly monitor credit balances

UVI maintained credit balances without permission from students, inappropriately used credit
balances for subsequent and prior payment period expenditures, and failed to disburse credit
balances within the regulatory timeframes.

“If an institution obtains written authorization from a student or parent, as applicable, the
institution may . . . hold on behalf of the student or parent any title IV, HEA program funds that
would otherwise be paid directly to the student or parent.” (34 C.F.R. § 668.165(b)(1)(iii))

The regulations at 34 C.F.R. § 668.164(d)(2)(i) and (ii) explain that after receiving authorization
from the student or parent, “The institution may use title IV, HEA program funds to credit a
student's account at the institution to satisfy-- (i) Current charges that are in addition [to tuition
and fees, board and room] ... that were incurred by the student at the institution for educationally
related activities; and (ii) Minor prior award year charges if these charges are less than $100 or if
the payment of these charges does not, and will not, prevent the student from paying his or her
current educational costs.”
An “ . . . institution must . . . [n]otwithstanding any authorization obtained by the institution . . .
pay any remaining balance on loan funds by the end of the loan period and any other remaining
title IV, HEA program funds by the end of the last payment period in the award year for which
they were awarded.” (34 C.F.R. § 668.165(b)(5)(iii))




                                                  10 

University of the Virgin Islands                                                        Final Report
Administration of Title IV                                                         ED/OIG A02-E0003


The regulations at 34 C.F.R. § 668.164(e)(1) and (2) provide time frames for disbursing a credit
balance when the institution does not have permission to hold the credit balances.

        The institution must pay the resulting credit balance directly to the student or
        parent as soon as possible but-

        (1) 	   No later than 14 days after the balance occurred if the credit balance 

                occurred after the first day of class of a payment period; or 

        (2) 	   No later than 14 days after the first day of class of a payment period if the
                credit balance occurred on or before the first day of class of that payment
                period.”

UVI did not obtain written authorization from the students or parents to retain the credit balances
and should have been disbursing the credit balances to the students within the regulatory
timeframes. At the time of our review, three students had Title IV credit balances totaling $862
in their accounts. Further, UVI used credit balances to reduce prior award year expenses of
$17,305 for 23 students. We also identified 21 students where UVI used their credit balances to
reduce subsequent years’ costs by $15,959 rather than disbursing these funds to the students or
parents.

UVI did not have written policies and procedures for managing credit balances, and adopted
practices that violated the cash management regulations. The institution did not obtain
authorizations to retain credit balances on student accounts, did not disburse credit balances
within 14 days when there were no authorizations, used credit balances to pay prior year student
charges totaling $100 or more, and held credit balances after the end of the loan period or last
payment period in an award year. Withholding student credit balances results in the student not
having use of the funds, and the University holding funds to which it is not entitled.

UVI uses the Banner system, which, as configured, does not provide a cumulative balance of
each student’s account. Without this readily available data, it is difficult to adequately monitor
the students’ account balances.

Recommendations

We recommend that the Chief Operating Officer for FSA require UVI to:

5.1 	   Establish procedures to identify and return student credit balances in a timely manner and
        ensure that credit balances are not used to reduce prior award year charges totaling $100
        or more;

5.2 	   Develop policies and procedures to obtain authorization from students to maintain credit
        balances;

5.3 	   Develop policies and procedures to disburse credit balances to students after the loan
        period or last payment period of the award year that the funds were intended for;


                                                 11
University of the Virgin Islands                                                     Final Report
Administration of Title IV                                                      ED/OIG A02-E0003



5.4 	   Review the accounts of all students who are enrolled at the university to identify any
        excess funds held in students’ accounts and return those amounts. For students no longer
        enrolled, UVI must document its efforts to locate these individuals and disburse the credit
        balances. Funds that cannot be returned to the students must be repaid to ED; and

5.5 	   Configure the student account system to provide a cumulative balance of each student’s
        account.

UVI Comments - UVI concurred with the finding and stated that it will work with FSA on the
recommendations. UVI provided corrective actions which should be considered by FSA in
resolving this finding.

Finding 6: UVI’s Satisfactory Academic Progress Policy was not uniformly applied

UVI did not monitor Satisfactory Academic Progress (SAP) as specified by its institutional
policy outlined in its catalogs. This made it difficult to assess satisfactory academic progress.
The coordination between the Financial Aid and Registrar’s offices was inconsistent and resulted
in varied applications of the SAP procedures. In part, this occurred because the written SAP
policies used by the Registrar’s Office and the Financial Aid Office were slightly different.

According to 34 C.F.R. § 668.16(e):

        For purposes of determining student eligibility for assistance under a Title IV,
        HEA program, establishes, publishes, and applies reasonable standards for
        measuring whether an otherwise eligible student is maintaining satisfactory
        progress in his or her educational program. The Secretary considers an
        institution's standards to be reasonable if the standards--
         (2) Include the following elements:
         (i) A qualitative component which consists of grades (provided that the
        standards meet or exceed [a grade point average of C or its equivalent] . . . work
        projects completed, or comparable factors that are measurable against a norm.
         (ii) A quantitative component that consists of a maximum timeframe in which a
        student must complete his or her educational program.

Because of the following conditions, we could not always evaluate either the qualitative or
quantitative aspects of SAP at UVI:

    • 	 UVI did not always include withdrawals, incompletes, or courses that were repeated
        courses in its database.
    • 	 UVI’s transcript program did not provide a historical record of students’ academic
        progress because grades for courses repeated replaced prior grades. This resulted in the
        recalculation of and the replacement of the prior Grade Point Average (GPA).
    • 	 Some courses were not included in the calculation of GPAs.


                                                12
University of the Virgin Islands                                                     Final Report
Administration of Title IV                                                      ED/OIG A02-E0003


    • 	 Suspensions were not consistently conferred.
    • 	 Students attending school for extended periods did not appear to be monitored to insure
        Title IV eligibility.
    • 	 Students were allowed to take more than the prescribed number of non-degree remedial
        courses, to repeat courses more than once, and repeat more than the four courses
        prescribed by UVI’s SAP.

The failure to input withdrawals, incomplete courses, and courses that were repeated meant that
the students’ SAP status was not correctly determined. The transcript program should not
automatically override the historical academic progress calculations. The failure to comply with
SAP policies may result in disbursing Title IV funds to ineligible students.

Recommendations

We recommend that the Chief Operating Officer for FSA require UVI to:

6.1 	   Implement an SAP policy which is consistently written and applied by the Registrar and
        Financial Aid offices;

6.2 	   Ensure that the SAP analysis performed for each student considers all requirements of the
        SAP policy;

6.3 	   Perform an analysis of all current students to evaluate whether the students are
        maintaining satisfactory academic progress and submit the results of the analysis to FSA
        for evaluation of the accuracy and adequacy of the analysis and return any ineligible Title
        IV disbursements; and

6.4 	   Retain a historical record of each student’s academic progress, including GPAs.

UVI Comments - UVI concurred with the finding and stated that it will work with FSA on the
recommendations. UVI provided corrective actions which should be considered by FSA in
resolving this finding.

Finding 7: The Registrar’s Office did not report student status changes in an accurate or
timely manner

The Registrar’s Office did not report student status changes in an accurate or timely manner for
three of four student loan borrowers who graduated from our randomly selected universe of 50
students receiving Title IV funds. UVI had no established internal control procedures to assure
timely reporting of changes in the students’ enrollment statuses.

Federal regulations 34 C.F.R. § 685.309 state:
       (b) Student status confirmation reports [SSCRs]. A school shall– (1) Upon receipt
       of a student status confirmation report from the Secretary, complete and return


                                                13
University of the Virgin Islands                                                       Final Report 

Administration of Title IV                                                        ED/OIG A02-E0003



        that report to the Secretary within 30 days of receipt; and (2) Unless it expects to
        submit its next student status confirmation report to the Secretary within the next
        60 days, notify the Secretary within 30 days if it discovers that a Direct
        Subsidized, Direct Unsubsidized, or Direct PLUS Loan has been made to or on
        behalf of a student who– (i) Enrolled at that school but has ceased to be enrolled
        on at least a half-time basis.

Two students status changes were received by National Student Loan Data System (NSLDS) five
months after graduation, but the statuses were recorded as “withdrawn,” not as “graduated.”
One student received a Bachelor’s degree in May 2002 and now is currently enrolled in the
graduate program. However, in NSLDS, the student is listed as “full time” undergraduate
student. NSLDS does not have the student listed as “graduated” or in deferment.

Failure to report a change in a student’s status correctly and timely could result in a student not
entering into repayment after the required grace period making loan collection more difficult.

Recommendation

We recommend that the Chief Operating Officer for FSA require UVI to:

7.1     Develop a procedure to identify all students who ceased to be enrolled (or failed to
enroll) at least half time or changed their permanent addresses, and report them directly to ED,
the lender, or the guarantee agency, as applicable.

UVI Comments - UVI concurred with the finding and stated that it will work with FSA on the
recommendations. UVI provided corrective actions which should be considered by FSA in
resolving this finding.

Finding 8:   UVI did not comply with established due dates for submissions of its Single
Audit Reports and is not financially responsible

UVI did not have a process to assure compliance with deadlines established by federal law for the
submission of its annual Single Audit reports. As a result, UVI submitted all required reports late
and, therefore, was not financially responsible for Title IV purposes.

“Except as provided by the Single Audit Act . . . an institution must submit annually to the
Secretary its compliance audit and its audited financial statements no later than six months after
the last day of the institution's fiscal year.” (34 C.F.R. § 668.23(b)(4))

As a public institution, UVI is bound by the requirements of the Single Audit Act and must
submit its audits within nine months of the end of the period audited. (Single Audit Act Section
7502(h)(2)(B))
The regulations at 34 C.F.R. § 668.174(a)(3) provide that “[a]n institution is not financially
responsible if the institution . . . [h]as been cited during the preceding five years for failure to



                                                 14 

University of the Virgin Islands                                                      Final Report
Administration of Title IV                                                       ED/OIG A02-E0003


submit in a timely fashion acceptable compliance and financial statement audits . . .”

According to the Federal Audit Clearinghouse records, the Single Audits for fiscal years ended
1997 and 1999 were submitted but were not considered complete because of missing forms or
missing components. As of January 26, 2005, these Single Audit reports were over six and four
years late, respectively. The Federal Audit Clearinghouse’s records indicated that the Year 2000
audit was completed on November 14, 2003; the 2001 audit on March 18, 2004; the 2002 audit
on September 22, 2004; and the 2003 audit on December 15, 2004. These Single Audit reports
are approximately six months to two and a half years late.

UVI officials indicated that its CPA firms caused the delays. According to the Single Audits, UVI
did not ensure that adequate accounting records existed and that the closing of its books was timely
and accurate so that the audit could be started and completed expeditiously.

As a result of failing to submit its Single Audits in a timely manner, UVI is not financially
responsible for Title IV purposes. When an institution is not financially responsible, the
regulations at 34 C.F.R. § 668.171(e)(2) provide that the Secretary may “(2) For an institution
that is provisionally certified, take an action against the institution under the procedures
established in § 668.13(d).” The regulations at 34 C.F.R. § 668.13(d) provide for the revocation
of an institution’s provisional certification to participate in the Title IV programs. UVI is
currently provisionally certified. The regulations at 34 C.F.R. 668.175(f) give alternate
standards that may be used by an institution that is not financially responsible to continue to
participate in the Title IV programs under provisional certification.

The regulations at 34 C.F.R. Part 668 Subpart G provide for the Secretary to take action to fine,
limit, suspend or terminate any institution that “. . . violates any statutory provision of or
applicable to Title IV of the HEA, [or] any regulatory provision prescribed under that statutory
authority . . . .”

Recommendations

We recommend that the Chief Operating Officer for FSA:

8.1 	   Cite UVI for its recurring failure to make timely annual audit submissions and take action
        to allow UVI to continue participation in the Title IV programs only under the
        provisional certification requirements of 34 C.F.R. § 668.175(f). Alternatively, if UVI
        does not comply with the requirements of 34 C.F.R. § 668.175(f), take action under 34
        C.F.R. § 668.13(d) to revoke UVI’s provisional certification as a result of its lack of
        financial responsibility.

8.2 	   Take appropriate action under 34 C.F.R. Subpart G to fine, limit, suspend, or terminate
        UVI as a result of its repeated non-compliance with 34 C.F.R. 668.23(b)(4).

8.3 	   Require UVI to establish processes that ensure the timely completion of the Single Audit.




                                                15 

University of the Virgin Islands                                                Final Report
Administration of Title IV                                                 ED/OIG A02-E0003


UVI Comments - UVI concurred with the finding and stated that it will work with FSA on the
recommendations. UVI provided corrective actions which should be considered by FSA in
resolving this finding.




                                            16 

University of the Virgin Islands                                                       Final Report 

Administration of Title IV                                                        ED/OIG A02-E0003



                                         BACKGROUND

UVI is an instrumentality of the U.S. Virgin Islands Government. Because UVI was not
organized as a self-sustaining entity, it receives substantial financial and other support from the
U.S. Virgin Islands Government. In addition, the UVI is exempt from all taxes and special
assessments of the U.S. Virgin Islands or any other taxing authority or body.

UVI is a higher education institution that offers four-year liberal arts degree and master degree
programs in teacher education, business and public administration, and associates degrees in arts
and occupational programs. The University operates through two campuses – one on the island
of St. Thomas and one on St. Croix.

UVI had Pell funding totaling $2,239,516 for 2001, $2,461,444 for 2002 and $2,565,781 for
2003. In addition, UVI made Direct Loans of $1,115,381 in 2001, $1,131,594 in 2002, and
$1,183,920 in 2003.

A January 5, 2005, letter from the FSA Chief Operating Officer to our Assistant Inspector
General for Audit Services regarding the SFA Interim Audit Memorandum 05-02 of UVI,
provided actions that were taken or are planned in the near future to assist UVI in achieving full
compliance. The actions consisted of: placing UVI on Provisional Certification (ending March
31, 2006); transferring UVI to heightened cash monitoring 2 (February 2005); referring UVI to
Administrative Actions and Appeals Division for Fine Assessment; and providing FSA Training
(February 2005).

                        OBJECTIVES, SCOPE AND METHODOLOGY

The purpose of the audit was to determine if UVI administered the student financial assistance
programs in compliance with Title IV of the HEA and applicable regulations. Specifically, we
evaluated compliance with Title IV regulations governing return of Title IV funds, cash
management, student credit balances, and student eligibility. Our audit covered the
administration of the Title IV, HEA programs during the period July 1, 2000, through June 30,
2003.

To achieve the audit objective, we reviewed the UVI’s policies, procedures and practices. We
also reviewed data obtained from UVI’s Financial Aid, Business, and Registrar’s offices, ED’s
Grant Administration and Payment System (GAPS), ED’s Direct Loan servicer and ED’s
NSLDS. We interviewed officials from the UVI’s Financial Aid, Business, Registrar’s, and
Chancellor’s offices. We reviewed the available Single Audit reports for the years ended June
30, 1999, 2000, and 2001.

To test UVI’s cash management, we judgmentally selected seven large Pell draws from GAPS to
determine when the funds were drawn and posted to student accounts. To determine whether
credit balances existed, we analyzed all student accounts. We asked for a listing of student
withdrawals from UVI, but found that the supplied data was incomplete. After evaluating
student account and transcript data, we supplemented UVI’s withdrawal universe. Withdrawals


                                                 17 

University of the Virgin Islands                                                       Final Report
Administration of Title IV                                                        ED/OIG A02-E0003


then included students who received administrative withdrawals, those who did not follow
official withdrawal procedures, and four who followed procedures, but were not included in the
data provided by UVI.

UVI’s initial responses to data requests for student account and transcript files also resulted in
our receiving incomplete files due to an erroneous data extract. After we received a revised
extract, we assessed the reliability of this computer-processed data and found it to be reliable for
the purposes intended. We accomplished this by comparing NSLDS data to detailed extracts
from UVI’s electronic data system and to UVI’s internal reconciliations.

We performed a student file eligibility review for 50 randomly selected students from a
population of 1,887 students who were enrolled at UVI during the July 1, 2000 through June 30,
2003 period and who received Title IV funds during any of the three years.

We conducted the audit in accordance with generally accepted government auditing standards
appropriate to the scope of the audit described above.

We conducted fieldwork at UVI offices in St. Thomas, VI, from November 12 through
November 20, 2003, from January 21 through January 29, 2004, from March 22 through March
25, 2004, from July 13 through July 15, 2004, and from August 9 through August 13, 2004.

                          STATEMENT ON INTERNAL CONTROLS

As part of our review we gained an understanding of the system of internal controls, policies,
procedures, and practices applicable to the UVI’s administration of the Title IV programs.
For the purpose of this report, we assessed and classified the significant controls into the
following categories:

       Cash management;
       Student eligibility;
       Credit balances; and
       Return of unearned Title IV funds.

Because of inherent limitations, a study and evaluation made for the limited purpose described
above would not necessarily disclose all material weaknesses in the internal controls. However,
our assessment disclosed significant internal control weaknesses that adversely affected UVI’s
ability to administer the Title IV programs. These weaknesses included outdated and
nonexistent written procedures, and the inefficient coordination between the offices responsible
for identifying withdrawn students and the office responsible for the return of Title IV
calculations. These weaknesses and their effects are fully discussed in the AUDIT RESULTS
section of this report.




                                                 18 

University of the Virgin Islands                                                                                                             Final Report
Administration of Title IV                                                                                                              ED/OIG A02-E0003


                                                                                                                                              Attachment A



    ~.I~,          U niversityV
       '-~.• ' 1'1 U    of lhe
                           the
                                iroin
                                  "0 TsJand'
                                iroinI.JJs]andsi
    ' ~~ Y.r/
       ,- ~                                                                          IhlhH lroIfY I I",.:nrur:. Un/Cl llt'i) CanMea1l   "'f)btllfv JntlY.. Ui ~'f'




                  \ Iarc h 17. 2005

                  DOlllel P. S,
                  Daniel     S hultz
                                hul12
                  Rl:giOllili In.!!.pcclor
                  RL;f!iorltll In!.pcl.:lor General        ror
                                            Gcnerul for Audil
                                                        A udit
                  uS   Dcp:..trlmenl (II
                  L.S Dcpartmcnl     of Educal10n
                                          Education
                  Ofnc~
                  Ofiic~ of 1I~ (nip.:
                         ofth~   In~~c\Or    (n.:n"rcll
                                         tor (n:Jl\:r.U
                  7 - PllTk
                  75        Plocc. 12\t1
                      Pllfk Pla..:c. 11tt1 fl oor
                  New
                  'lr:w Ymk. new York 10007    IOOD7

                  Ro:
                  Re: .cD-DIG
                      1 D·DIG A02-EOUU3
                              A02· EOOUJ AuJ,'  Report
                                         A'''h'l\eport

                  Ucar ~~lr
                         Ir Schultz.
                             ,hultz.

                  In l\.'spon!>c
                     rc.spon .. e It>
                                  to your
                                      YI)ur TcqU(.$l
                                            n:quesl for   tOmmenlS regimhng
                                                      rOT commen!!     regardi ng tit  abm e ment
                                                                                   the abo\                       audit, pplease
                                                                                                    n1tnt ioned audit.     l e~ find
                  cnclosecllh~
                  cncl~}:{r.:J thr  Universlt), s '\\,nUCl}
                                    Lm\'erslt}'s              commcm~. The
                                                   \o\oTLlIcn cammenb-.         t 'nhcr,;i
                                                                           nle Cnt\           l ~ i't awure
                                                                                      I.!T')i l)      aware of       ~e riollsncss of
                                                                                                                 the "eriollsness
                                                                                                             lIf Ihe
                  th\!~ findings
                  the\t:  finJing.s and has been \\Orking
                                                       \\orking "with  lhe F A to
                                                                  it h 1he       \0 resolve these        ISSU~.
                                                                                                  th('SC ISSUes.

                  AS   ofthi~... dale.
                  I\s o(lhL      dalc~ the Mid·A.tlMlic                     PartlClpat]On Tc:-a.m
                                            Mid -Atlantic School PartiCipation              earn ma
                                                                                                  hi,.'s) lnm sferred Ihe
                                                                                                          tmnsfclTeJ      I Jllivcr'ii l}-
                                                                                                                      the IJnh'crsi    ty 10
                                                                                                                                           to
                  the Ileightened
                  lht-                          'Aonitoring 2 ~)'Slan
                       Ilelghtened Cash Monitoring                   '\y~t.all of payment
                                                                                  payment (I                ~ Um\l:Tsny
                                                                                              ICM1). 'ITn...:
                                                                                           (1 lCM1).            UnneTsny understtmds
                                                                                                                             undersHmds
                  I~ lm
                  the  Inl pli
                           pl icntion~
                               catiun~ of
                                        ol"lhi      ~\c. li of\ :md has
                                            Ihis... <ll:lioo        bas formed an task   fOltC' to i1nd
                                                                                    msk force         d dre:t~
                                                                                                         dres~ and implement change
                  occeSSQry
                  necessary for complillDc
                                     CO!'IlplillI1cc_....

                  A~"a ..,mallllllC
                  As                       in~tLtulton. nl!arly
                       ..mallIIllC lL in.slllllhon.                       fon.y ~ fi ve
                                                               nt!arly tony-fi         \'c percent of
                                                                                                   01 oUrsrudC'nb
                                                                                                       our students n,'ccivc
                                                                                                                       n:celvc and depend
                                                                                                                                     depe nd
                  upon
                  lIpon financ
                        fioaJK'illi
                                 ial aid
                                      old 10
                                           to furth.....
                                                     ....... tJlf,:lr
                                                             UIf.:lr acnucmic
                                                                      ucadem ic cmJea\'oni
                                                                                      cndcu\'crs 11    i~ up to (lu
                                                                                                    IL i!;      ourr institution to ensure
                                                                                                                                      ensurC" Ihat
                                                                                                                                              that
                  the cnntin
                      cOlllin ul!d   fl O\v !"If
                              u..:.d 110\\  ('If financial "aid     id is Q\
                                                                          D.v3.i1:.'l blc while
                                                                             lli lllbJ            mJinl.lining a.nd
                                                                                           \\hile m.ulltuining  and 1IlIIoniLOring
                                                                                                                        1011ilOring compliance
                                                                                                                                    compl iance

                   We   npp~iale the n::\
                   We:: nppreciate        ic\\o of II'
                                     RTic\o,       theK! dralt       ~lnd look forward
                                                         drah report and               to reeel\
                                                                               forwnrd 10 rece ... Ing I h~ fin£l
                                                                                                   m~ the   li nnlJ l\!port
                                                                                                                    r..:port

                  ~inc~rc l y,
                  Sincerely.




                  l' ni \'
                  Uni      t! rslt~ (\Clh<.:
                        \'cn,il)    ~\flm: Virgin
                                             Vi rgin ltll;lMd.5
                                                     h lnnds
                  2~ John (3rI!\ .. '.'r·~ Bay
                          L3 ro:v..<'·r·~  Bc.y
                                         oo802-999U
                      n,omas. VI 00802·999(1
                  SL TIl()m~.

                  ~~: VmCCfll
                  t:~:          ~lImutl, vr
                       Vtnc.enl Slimuel.          AdmmJ5tr3lion [lend
                                              VI" Admu1.I5Intioa          naf1u~
                                                                  (lud fi t'l4l1le
                        Ucnl)      ah. j'!'hb. D"
                        Hl:nl) Sm Ith.             A~nt Provost
                                               0" Actin! Pro\'OS1




        ~ 2 Johl1 8 Il-.... l: r ·:.   B.t y • $1 Thurn.n · US VUJ.lIl I , la nd~ 00802 . Tel         fl.4()} 691·1000    • Fu _(340, 693~ IOO5




                                                                                     19 

University of the Virgin Islands                                                                                                                           Final Report 

Administration of Title IV                                                                                                                            ED/OIG A02-E0003





              F ln d l n~
              findln~       1: UV I pro\-ided
                                    provid ed Tide      funds to stud
                                                     I (uDds
                                              Tit le IV          st ud ent.s
                                                                       ents wwho h:uJll the ir :Jat:.:llI
                                                                              ho hu               C!ldccmimi c recurd"!
                                                                                                               records
              lIclctccl_
              tlclctcu,

                              LnJn~rslty concurs with
                        "1 he Lm\'eISlty
              Response: lbc
              Response'                          ~'1th the tlndmg and
                                                       tbe tindlDg                     FSA on the
                                                                   OInd \\111 work wah fSA
              reconlmend3ti(ln~,
              rcconlmcndatio  n.;:,

              Action Sludcnt
              Aclion      Student class      ro~tc:n; will be issued
                                      ci8!l5 nJ"Jtc:rs           ~sllcd lO to all  facult)· members llstint;
                                                                              <til ('leul!)                    ~11 n:gi!ilered
                                                                                                      Hstin& all   rt::g i:Slered
              st\l~I\tS
              srudents       Lpon    completion.
                             Upon complcti            rOSters ,,,ill
                                                 on, rosters          be- returned to the RC@.1strnr'sOffice
                                                                wi ll bC'                                          \"Crifyin~
                                                                                             Reg.1S1rar 'S Offiee 'wifyin@
              student"';   registen:d and alb..:nding,
              :J.ud.:.nl'i n:gl:;lI:rOO        !.ttlL!ndinl:l. annotating    discn."p:mcic'I in regislnaliun
                                                               annotatinG discrcpancil!S         registration nnd the the: last dale of
              "k.nown
              "known atll:'nd:mcc"
                           illle-ndante" , TheIbe data
                                                    lIam will
                                                          wtll be SUmm(l.ri7..ed
                                                                     5umma.ri7.ed .lnd and the infomlJ   llon forwarded
                                                                                               infomlalion    fom-arded 10    to the
              Financial
              Fin."U1ciQI Aid oniceonicc and the       Accountins oOice
                                                  thc At.:C()1Jlllins  orricc

              1he clilS:i.ilic3lJOnS
                  clnssiti\.:3uons lbed used on the roster mllmclude:
                                                            \\111 mdude:
                              Stud(!nts regIstered
                              Studtmts    regJSh:rtd and not attendlll£
                                                               altc:ndlllg With
                                                                            \\1th lost  dB)' of o.Ul!ndwlCC
                                                                                   Inst d:ay    QUI!11dwlCI!
                              "tudenb     rcgi~1cred hadng
                              C;;(udl!nl5 registered           ne\ er aue.ndcd
                                                      having ne\Ct'   allc.ncict.1
                              StuUt!11ts registered
                              StudcnlS    rl!glstcred ha\ Ing
                                                          mg omcia       c11tS~ lind uni\'~rsity
                                                               ofticia l class       university \\ithdrawals
                              Studcnl'O                   nnd altendmg
                              Studenl!; not registered. nod     Iltlendmg

              Ro.sll!rs will he
              Rmtcr'i                    h\.' i:ssued 10
                                                       to the facuity                  R(~islrar'~ ollice
                                                               faculty from the Registrar's             ol"flce t,twu       1un~ during
                                                                                                                     ..·o tllllc:-. Juring the liro;tjirsl
              month ()[
              montll               c!;J.,"'~5 , nt
                            of c!;l,.<\SC's,      m midterm llud     durinG the fina
                                                                and during            filla l \\Ic:ck           <>etnCSler 1h
                                                                                              \"'eek of the semcSler              Ttlt'~     ro~~rs \\;
                                                                                                                                      .' -.e ro..-ters \\;1111
                            cornph::tion and retum dale
              hn"C' ll.4 cQrnplt!tiun
              hn"c                                              date of .)O\!
                                                                           one \'veek      rrom the distribution
                                                                                  \Ve~k from            diSlribution dale.   date. The
                                                                                                                                     Th(.' PrO\
                                                                                                                                             ProvOSt     \\111
                                                                                                                                                    osl will
              recei\'e
              rec..-eive:1a listinglistins fron1tilc       R~gistrnr':, office
                                                frOnllhe RC'£istnlI's      Oft1CI! showing fac     facuull),
                                                                                                         ll), tbat
                                                                                                              lblll hn
                                                                                                                    have       nol complied with the
                                                                                                                         ... c not
              une wed
              one    \.\'(,'1:1.... deurllinc.
                                    deadline. 1)Clinqucnl           raeu il)" ""ill
                                                     Dclinqw:nL raculty        wiII be IlOlificd
                                                                                           notified b) b} the l'I'ro\,os
                                                                                                                   rO\'ost"s  i"soffice
                                                                                                                                  office and nnd follo\\ up    ur
              willll cOlllinlie
              wi     cominue untIl                 there is
                                           unullhere         lOOO.4 complUl.ltCC.
                                                         ;5 100%     eOD.lpliruICC. TIl Flnnl    FlnLlI Grade Report Memo        McmC) wIll \\~11 ht
                                                                                                                                                  be
              modified
              modl     fird to Instruct              focult), to
                                        iIlS1..fUel focult)       idcnlif) studL'"nts
                                                              10 idcntif).    MudenlS receivlDg           Failurt (F) grMc:s
                                                                                           receiving Failurc                  grCJ.1es and     an notate ihat
                                                                                                                                        WId ann018tc         that
              the grade
              Il'k: gmdc \"85       \"'as based on academic failure   ratlu!"!;: (l[ no nttcndrulcc.
                                                                                 or nQ    ilttcndrulcc TIlis       illfonnaliQll \\ili
                                                                                                            This inrormation                   aJS() be
                                                                                                                                        will also
              ronvan.led to l.he
              forw".1tded                        Accounting oinct'
                                           lhe ;\ccounung       atTIc,", and lhe Financial Ald      Aid office,
                                                                                                          ollie.:

              Filldiug2:
              Finding    tJ VI rlliltLi
                      2: UVI   rll il cd tu
                                         to admi ni!der the return
                                            adm iniuer      retu rn orT
                                                                    o(TiUc
                                                                        llle IV fun ds
                                                                                funds

              Response:        h ~ liniversllY
              Ik.s.porL<;C· "I hI!  UniversilY concurs \"ith
                                                       \\rith the finding
                                                                  find ing exc pI as
                                                                           except     nol~d below
                                                                                  3<; noled bt!low and \\ill work \\l   lh
                                                                                                                  \.I, llh
              th{'  F .A on the
              the: FSA       tht! recommendations.
                                   recommcnciaticms.

              All smdent"     rotentiull\' eligible
                   smdent<: POtentiall),   djp,iblc for return ofTjlle
                                                                   pfTjlle IY IV "ere
                                                                                    \'ere not alw:l
                                                                                               alwtl.\s. . .~ Identified . I he auditors
                                                                                                                                   .:tudilo~
              rcfcrcrw.:e lour
              rcfcrt:ocl!        studems wno
                           IQur students   who rccch    ..-4 Title
                                                  recci\cd   Tille: 1IV fuml~ and withdrew flom
                                                                      V funds                         from all  oJ] co urse!> and
                                                                                                                    courses    Ilnd whose
              Llnm~ dill
              113md   diu not appea               Acco\ln tin~office
                                 uppcn r on the AccO"llnling     office 's "S
                                                                            list.I, After fe\                 Ihc~ rour
                                                                                                ic\\o of Ihcl)e
                                                                                           f'C\ ic\'"                four students.     ll~
                                                                                                                           :$tudcnts. the
              Accuuntinc office did COmplll!le
                                          complete [la return
                                                        rerum of Title lV  IV (or for one of the students, the rerum     return was
              mputted 11110
              tnpulled   IntO lhc
                               lhe subsidiary   I cd~cr or
                                    subsidiQr)' h:dgcr       ~he sludl!nl
                                                         of the   !OIudcnl :1 00 ret1Jmed
                                                                           :.lnd   Il."tumed 10 the dcpaJ'tlllcnt(s..:C'
                                                                                                          departJllcnt(M:c
              attQchment
              attQch ment :2·3)
                             ~·3)


              Action The Uni\ersit)'
                            Uni\'crsity h:tS rev!l!wl.>d the flow of
                                        has rcvtt!wed                  the officiol
                                                                    ofthc            \\;thdr.lw information
                                                                           official withdr.tw   inronnati n between
              the Registmr's  ot1ic~ and the Accounting onicc
                  Registrar's officI:                         onice and
                                                                      ilnd bas
                                                                           b.:ts detcrmmcd    In"l tht.· Accounting
                                                                                 determined thilllhe
              office ~ho\dd
              omce   shou.ld not be domg    the: c~lculatian
                                    dOlO!?; the  ca lculation of  ~L!lurn "r
                                                              ofRctum      or Tille
                                                                               Tilic IV        UniversllY J..~
                                                                                     rv The University      a.~ of Summcr
                                                                                                                   Summer
              scmesrer 2005 has as~i~ned
              semester            as~igned the return of'!'tlle     I V calc:ulntion
                                                          oI"Tll le IV  calculotion 10 the f'Fmwlcial         oftic~
                                                                                               UlWlcial Aid otlice.




-
                                                                                    20 

University of the Virgin Islands                                                                                                                      Final Report 

Administration of Title IV                                                                                                                       ED/OIG A02-E0003





              which IS under the
              wruch                           ~amc eompom:nl
                                         the. name     c mpollenl as 1~        Rcgistrllc's office.
                                                                         the Rcg,islclU"s       office, This reassignment
                                                                                                                 rcassignmcnl (of    If the
              proccs<;.
              proccs'< wil   \\o'illl mloimi7c      iJelays in
                                      mmi mi7c delays                 flow of
                                                             In the flo""    ofi.nformillion
                                                                                infonnation and inc rease  n::asc the QCcuroc)'
                                                                                                                          llCC Urac)' of the
              intbrmati on tmrlSminoo.
              information             \1UllSmiru..."'d. As a seconU
                                                              second check, the AccountingAC li:uunti n~ office                  d~t abase lhat
                                                                                                                        bui ll a database
                                                                                                         offi ce has buill                  lhal
              .shov..'
              shows   !o, al l offieiru
                                 officidl withdmws, academic ncndemic or      administrati\ c. Thi~
                                                                          nr admtnlslr:lti\.c.        This is run once
                                                                                                                     nnce au week
                                                                                                                               wcek aud
              comp~U"o!d
              com~:u~d to (he.                         5 u ~id i ary ledger
                                       the student 'lubsidiary                    d~tCn llln~ If a return
                                                                     Icdg<:r 10 delenmoe               rcmm aoft 1l [tIe
                                                                                                                      ltle IV calculation    h ll~
                                                                                                                                cak.ulation hb
              h.:cn completcG.
              h«n      completed. If there is no adj               ustment to !.he
                                                               adjustmc.:nl       !.he. !ltudcnl's
                                                                                         lJludcn l" s Ilwnrd  a lllount. the AeC{}W1l
                                                                                                      nwnrd amount.             AccoUntinglng
              o Hicc ""iI1
              ()nice      y. illlH)liry
                                   nUliry the Financial J\Aid        otlitce: fN
                                                                  id oni             01 10\\' up. nl(~
                                                                              fo r 1follow          llu! Hn.lJlch'tJ
                                                                                                         Financi al AId Ald oflie!:
                                                                                                                              office and the
               Registrnr' ~ oOice wIlt
               Registrar's                   will ",ork
                                                    work coopcrati\t1y
                                                            coopcrati \ c!y in obtai
                                                                                  obta ining           nccc~ry dOClllnCnLO;:
                                                                                            ning the nccc'\Sar)·    dOCllmcrtLI\ nnd
                                                                                                                                   nnd
              cornplclill~ the
              completmg              lh~ calculation,
                                          C<1]CUl lltioli.


              111C
              TIle Director of Financial  FitWlci<11Aid wi       willll be responsible
                                                                             responsi ble for                          necessary ~aa
                                                                                                     trmrung the neceS$aty
                                                                                                 ror lr.umng                           ff on the
                                                                                                                                    staff
              corr!!CI proccdures
              com.!ct     procedures ",,·ith            r~spcc t to rd
                                               \...itn rcspt:ct        r~ l um of"'
                                                                                  oT Tiitle
                                                                                        lie.: I V fufunnds.          r malleial Aid oOke
                                                                                                        ds. The Financial              office upon
              completion or
              ctJmplet[on               th~ o:tum
                                   01" the    n::turn of    Title: IIV
                                                         of Title         fund~ template will enter the LOformalion
                                                                       V t"W1ds                                       tnformatlon into the student
              ledgel
              ledger sy sy~tcm
                            ...tt:m A (:opY   copy of Ihe  the student's ledger \\o           ill be printt.
                                                                                          \\o ill            'tI sl)()\\inl;;
                                                                                                      printl.'tI sl'K",;ng thc    adjustnlCllt tll Ti
                                                                                                                              the aJjustJUcnllU         Title
                                                                                                                                                          tle
              IV awarded;
                   awarded ; this           \\11\ be rC\'le\.\.'ed
                                      Ihlo; \\111        revu:v,:ed for fo r accurnc.y
                                                                             nccurocy and attached an-ac hed 10 to the template \IS as b..
                                                                                                                                        b.'. lctu    p. A
                                                                                                                                             ld..'1.lp.
              eop)
              CO ))) of
                      IJf the retul"n         cu lculation. thl'
                                   reln.-!) culculation.               suooidillry ledger
                                                                 the subsidillry       k'tl gcr and tlllic lC withdmw
                                                                                                               \\ithdmw slip or   ur roster
                                                                                                                                     rosIer showing
              unofficial '\i
              unofficia1        \..i t hdr~
                                       hd r ~ w will
                                                  \\illlxbe sent 10 the l\CC.01.IIlHna
                                                                              Aeeolllltin&office for revie w. 'II he          ~ Aetounting
                                                                                                                                 Ac(ouJlting onice
              \\ill re\'
              \\;11  rc\' icw                documentS lor
                          ic\\ these docutnents                     rlccurncy ortl"\\:
                                                               for 3('curu\:)'     oft l'lC calculatiun
                                                                                               c.alculati on and data input input into Ihe
                                                                                                                                        the student
              5~lC    "" \\hich
              SY':;IC:n1.                fced~ into the
                           \\ hich rcedor:                Ih~ fina
                                                              fi nnncitt.l    system. Should
                                                                    ncial s)'Stem.             hould there be n disc  di sc repant)
                                                                                                                            repanc) inin lhl:
                                                                                                                                            the
              c3.1cul:n   km. \lJ COP}
              cal ub l ion.            COP) (lulIlthe lie documents ,,,               forwarded to 1the
                                                                            \" ill be forwnnk.-d             m: Oi.rcclor
                                                                                                                 Din:.c lor of Financial Reponing
              l1nd 1\n;llysis
              oml    o\Imlysis fo r review and !ina]          fili al determinatIon.
                                                                       deteml1OUtion.

              COJlllucn
              CoJtullcnls:      lS: The Uni\   crsity has been working With
                                          Uni\'ersity                              wnh the  th~ I;SJ\
                                                                                                 FSJ\. to rt:solve
                                                                                                              resolve tbethe: audi
                                                                                                                                 auditt iind i.n1;S and
                                                                                                                                        iindincs
              wc have calc
              we                calculated
                                     ulJ.Led FY 2000·200 t1 and 200 1·2002    1-2002 Ti lJe   lle IV Retunls
                                                                                                         Returns fat      th()~ students
                                                                                                                    for those       ~tllden t s for
              \\'hom we hnd no calculation on
              \\illln1                                  0 11 fi le
                                                                lt! or
                                                                    ur the  cal culation \\;as
                                                                       thl! culculatlon         \\.1]5 done latc. I1h.   11~ C"· IX-pmtment
                                                                                                                                 Dcp:JJtment has
              requested
              rt:lI. UI:!!o;l ed Intcrest        paid 0 11 the late
                                 mtcresl to be paId                Ime clllculutiu
                                                                        cu.h:..'u lu.tiu lls
                                                                                         ns for fiscnl       yent 00..0
                                                                                                   li!llcn' yew    00...(l1I in !he
                                                                                                                                  the: :mlOU
                                                                                                                                       amount  nt of
              S~:1 1 ~J4. We are clI""nlll'
                   I'2.34.                 currenll y "ofk
                                                      \l,Otk i n~ with
                                                                    whh the rSA to "'501,<    rcsohoc tisc         )ean. 01·02
                                                                                                                ..1l"""
                                                                                                           liscdl            01-02 and 02-0102.01
              audit findiut,:s.
              3udit       findines.

              Finding
              Fin          J: L'Y)
                     d ing 3:       V L did not      id entiry ~.~tudC
                                                no t identiry     tudCllts
                                                                        II I S w         r~ilctl to fuU
                                                                               \'t·IIho" fuiled           ()\\ official
                                                                                                    fo l.hm    offici al wllhdrllw
                                                                                                                         wlLhtlraw
              I'I l'uecdu
              III'         r cs 1lind
                   "O ccclurl'S   '1111] 111:1)  h3\'~
                                         111 :1) h ~{\ c: bt'fD ~ Ugi b l~ for rtlurn
                                                          been ~U:,:lble             rt turn of Till e IV funds.
                                                                                                               fund s.

              Response: ·111C"
                          nle UruUruvcrSII}'
                                     vcrstty concurs
                                             COliC-Un. \\ith the finding
                                                                 findinG e,ccrt    n.s noted below
                                                                         eXl.'t!pl as        bdow and Wi
                                                                                                      \\'L 11   rk with
                                                                                                           ll work
              I h~ FS:\
              the  FS1\ on the
                           tl lC recomml.!ndotions
                                 rccommendntions

              Fin"
              Filh lwo
                     Iwo studcnl.I\
                          students rcc:et\.ed       (otill 0[5
                                       rceewed it totl11   ofS 124.6
                                                                12-l618   18 In  Ti lle
                                                                              m TII      IV fund,
                                                                                      lc IV                   rnilt..-d nil courSe(
                                                                                                         nnd railed
                                                                                                fUl1d" and                  course
              11u~ auditor'
              rhe   auditor'ss results sho~'cd
                                         showed (inyfin) two
                                                           IWO siudents
                                                                students that had  h3d 11.all1 1J"r 's and
                                                                                                       nod receIved
                                                                                                           received Ti Llc       TV fu
                                                                                                                             tle lV fUllds  li') r
                                                                                                                                       nds lor
              \ariou)  ~cmcsl.Cni. Upon !'e\
              \uriutl) semcsters.                        of th
                                                    e W of
                                             I'C'\llCW         IS li!1T.
                                                            thiS        i ng. the Univt!nolly
                                                                  listing.        Unive.rslty found                   slu d~nts who did nOl
                                                                                                      fo und two student"                  nO{
              rec eive alll-
              recclvc         ' s for the semcster ill
                       all ,, 's                          que~l ion and their
                                                      in quesliun             thclI trnnscrjpts
                                                                                     trrutseripls arc      ol1oc.il..:d (attac
                                                                                                       ore altoe:hc.:d           hment 3-a).
                                                                                                                          (attuchmcnl   J-a) .

              AcU     PtCOl.')C re fer
                   n Plea.-.c
              Action.              fcr 10 Finding   I.
                                          Findi ns, 1.

              Com ments '1I he Uniwrsity
              CommentS:           University submItted
                                                liubnllltcd an spread.. ord1ett co ntaining all student:.
                                                               sprcmJ...'\hcct                               ~, ho recei
                                                                                                 student!:. \\00         ve 7..C"fTI
                                                                                                                   receive  zero
              cUDlu lnli\;c
              cumu          cred ils
                    illthc credi  ts (all F's)
                                          F' s) during Llle  Falll1 2000
                                                        the Fil.    2{100 and Spring 200       scnH~sters, The
                                                                                         20011 :;.emt'.S{ers    ~sc se students
                                                                                                                       Stude.nLS




                                                                                  21 

University of the Virgin Islands                                                                                                               Final Report 

Administration of Title IV                                                                                                                ED/OIG A02-E0003





              also
              al1>o did not return to
                                   LO Iht!
                                      th..: Uni\Crtity
                                            Uni\crsit) aOc-r
                                                       after the
                                                             thc .!term·ster.
                                                                 i;emestCf". The Lnivcrsity
                                                                                 University is
                                                                                            Is stili ""'orking
                                                                                                     working with
              the FSA
                   F i\ on the resolution
                                resolut ion of this issue.

              Find ing 4: UVl ddid
              Finding             id DOC
                                     not aa(wI)-'s
                                             lwJ}'s ha\'c
                                                     bave Ihethe DCCHS!U"Y
                                                                     nccessAry dO(UIDCQt   tion rcquired
                                                                               document aluion  required f()r
                                                                                                         fQr 5tudenu
                                                                                                              student>;
              wh o receive'
              "'hn          ~I dmini s tr:lti\'e
                   receive IId.mi.ni'itrati\   c withd  r::",
                                                 wi lhd ra     a ft"
                                                            ''':Ij.,.

              Rcsplln~. TIlL'
              Response. Th(!: l.'ni\'crsit)
                              l 'ni\'crsll) concurs
                                            WIlCurs \"jlh                          wor ~ with
                                                    \ .. jlh the find ing ami will work  ~ilh FSA (lll
                                                                                                  (111
              recommendation

                              l~n ivl"r'
                         nil! Un
              Action TIll!        i \'c r\it)"  htl~ modifil!d
                                         <.iL), has      rTK)di fil.-d the Admi
                                                                              Administrative
                                                                                       uistrnti .. c withd.rawal    poHey and
                                                                                                     withdrawn I po]jcy       Md procedures.
              A stude-nl
                  slUdem mayn~y requl!'st
                                 req uest and receive an administmtl\"t" ildministmth"t withdrawal
                                                                                               withd rawal from the Pro\'ostIlro"ost for mcdlC"3.I,
                                                                                                                                           medical.
              p..--n.onal hardship
              pcnounal    h:1HJship 01 01' miiLttlr}
                                            miiLu'f) service.
                                                            senicc.1t    It is                Provo!>t IO
                                                                            IS up to the Pru\'OSI           dl.!icrmine if"
                                                                                                         to determine     if the reuson
                                                                                                                                    reason and
              supponingdocumcntation
              suppon ing documentation is sufficient tIl                   u. gnull
                                                                               gr.J./u an admlnh.trnti\         withdmw. Completed ",nd
                                                                                            admlni::'lruti\'cc withdrnw,                      and
                        ndrninh.trati\ol! Withdrdwal
              signed Adminil>lC3tive          Withdra\\ al rorms with supporting documentation \VlU                        \Vlll be forwnrded
                                                                                                                                       forwarded to
                    Rcglstntr's office. lne
              thl! Rcglstror's                 Ibe Provost
                                                        ProVOSt forwards
                                                                      totvt'nrcis the admim
                                                                                          udmimSlrulivc:                      inronnati on tu
                                                                                                     lcutivc withdrawal inrormati             to the
              Rcg1jlmr '~ office no later
              Regl!:ltrur's                 latcr 1lhlU11h\.'
                                                      11M the iit'$1jj~t day uf tht        follo\-\'ing, scm
                                                                                      thc following       5 mcstste r to he applled
                                                                                                                             apphed to Lhc the
              ~tuden t 's records. IJ he ""ilhd.rll\\.ll
              ~tuJen(3                         wilhdraw.u inlonn.ltion
                                                                     inlonn;uion \.,.ill\~i1I be
                                                                                              ~ c.ntcred
                                                                                                   cntcn..-d intellhe   $ludt!n t's
                                                                                                             into lhe studen     l ~S :academic
                                                                                                                                      academic
              transcript and the wilhdrn
              Ir.u1Scnpt                           ....t.!l fj)rm
                                      wi lhdra\lt-aJ        fi)rm aand nd supporti
                                                                           !iupporling  ng documentation
                                                                                            documenw titm will be placed   pl'-lced in the
              Muden l's
              studen   t's academic.
                           academic file A copy                            Admilllst.ro!t\'c Withdru'
                                                       COP)' of the Admi!lis1.rotl\c               Withdw\A.    rorm
                                                                                                             W fo  rm (nal
                                                                                                                       (nm the supporting
              document.ltion)       will ~ 11)r\\.lrdN
              documcntntion) y.,'i1l1J.:        il)mtJ.rdt'd to the          FillLlnc iul Aid office to co
                                                                        the: Filltlnc                         c:o mpktl:    th~ Rt:.tum
                                                                                                                  mplete thl:    Rc:tUIn of Title
                                                                                                                                             TItle
              IV
              IV cacnlculation.
                      lculation

               In the     C\ cnt of c.xtcDualing
                    tht.: cvent                                            stUd~n t mal
                                                      circumstances. aa. srudent
                                      e>.:tcnuating circwnstanc:cs.                   may rcque51
                                                                                           request appm\ul
                                                                                                        apPf(}\ftl of an
                                                                                                                       un
              administrative wi
              acimlllislr3.li\'e         thdraw by the Pro\o(;;:t
                                      withdraw              Pro\o:-.t after th\! requir~tl first
                                                                             the required           J..ty of the next semester,
                                                                                            ftrst J.ly                  semester. \\  \.\ hich
              the Pm\'l)"il      ~lIbmits
                      Provost submi       ts to the Regi!\tr...r's
                                                     Regi!>t rar'S offtce.1
                                                                   office, fhishIS wou
                                                                                   \\-oo ld rcqwn:           I~cgj slrar's office to
                                                                                            reqwre the Registrar's
              cc.h::tngL!
                  hange the \\\1thdraw
                                 ..,thdrnw code from ftolll 3.coocmic
                                                            academic "\\llhdmw
                                                                          , thdmw to nJminilStrativc          \"ithdraw. n
                                                                                        ndmmist rat ivc withdraw.             li:. proces~
                                                                                                                           TIli:t  process
               would
               u:ou.ld hn\cnn\(' nl)
                                  nl} impact on Iho!th~ I'Cturn
                                                         retllnlnfTitle
                                                                 "fTille: IV calculation
                                                                               cnlculalion SinCe
                                                                                             SIOCe- the roster
                                                                                                           rosIer wuuld
                                                                                                                    would Ihave
                                                                                                                             UH'I! already
                                                                                                                                    alrcad)'
               shown       the ')tu~ill8S
               ...110\\11 Ib\.' ~llldent as "\\ii thdrawn
                                                  Uldra\\ 1l and the calculation
                                                                      cllicuintion would h.'l\'C
                                                                                              h,'h 'c been
                                                                                                       m'Cn completed         that lin11:
                                                                                                              cnmplctcd at lhat      tmll!'

              Find ing 5: W I did oot
              rinding             ooi properly
                                      property lI10 llittJr credit baillllc(.'s.
                                               lIl onitur          balaucl'S.

              Response:· The
              Respanse            rn i"c:~i[y concurs \\ilh
                         TI lt: rPni\oersity                 the find ins
                                                      \.\ith the-         nnd \I,IIU
                                                                      ing and \\rIll                 \H)r~~
                                                                                                     "or           tho.! roSA
                                                                                                              with thl!  FSA (In
                                                                                                                              on
              recommendatiOns,
              rccommencia1l0ns.

              Aclion TIle'
              Action      TIll: L'ni\'cr~lI)
                                L.:nivcrsil) has ~vlsed
                                                    reVised the policy
                                                                     pOlicy and nnd procedures       (Qr monitoring
                                                                                        proocdures (or     moni toring IitleI itle IIV   c.."t'ccJit
                                                                                                                                     V credit
              ~;t1ances
              balances as of   ofSeptc   m b~r 2004. '[
                                  Septcmbl!r               TIl\:
                                                              he Accolln1
                                                                  Accmml'mg     mg office hilSh:l.5 bwlt a(I. daillhil<;e        ~1'lo\\ <I,
                                                                                                                          thai ,1\0\\'\
                                                                                                              dalPb"se that
              (\ul,t:lncilng
              (}ul... tanding credit balances
                                       lxIlaJlccs by tenn
                                                        tel'll1 tills
                                                                this 1.l!O.. run {lllce
                                                                                  once (1n wc..:k
                                                                                            wCo.!k This
                                                                                                    Thi!5 inrormation
                                                                                                            information is comp31ed
                                                                                                                                 compo.red to
                   stud~Ill's
              the slutknl    's suhsidlo.ry
                                 subsidHlf)' ledger 10 dctt!rmi
                                                            dctenlli nc the caUS\.·         or
                                                                                    I.:ausc or the credit balnncc.
                                                                                                              b.1lnncc. When the Cledit    cledit
              balance is 3uributcd
                            attributed to Title
                                             Ti tl e I V funds n chC'ck
                                                                      ch('ck IS  IS. Cui
                                                                                     CUI and distributed to that stude  student.nt .

               Ueginnmg in rail
               l)cglOntnc.     ra il semcster 2005, the Ac  Accollnl in~ ollieI!'
                                                                ollnling          \.,ill diSlnbutc
                                                                         uffice will     distnbutc to all students
               Teecl\ing   fimlllcini aid n
               Il!ccl\ing fimmcinl          letter :tuthori7ing Ihe University to apply
                                          u leiter                                      a.pply outManding.
                                                                                                oUl... tandi ng credit balances
              1[0
                0 fu ture or pnor
                             prior period Insti  tutional
                                            Institu                 luUachnlcnl 5·a). The: signing
                                                           chiltges (uu<lchnlcnt
                                                    tional charges                               5igning of t1u thiss (orm  wil l
                                                                                                                      rorm nill
               be vohlltt4r-y  nnd tm:
                   \'OIUIUIlI) and  the stUdent
                                        student or puren
                                                     parentl may mod
                                                                  modii}
                                                                       ii) or resCind
                                                                               rescind thethe: authorizntion
                                                                                               QUlhori7Jllioll alat any lime
                                                                                                                         time




                                                                              22 

University of the Virgin Islands                                                                                                          Final Report 

Administration of Title IV                                                                                                           ED/OIG A02-E0003





              The !ngnoo     forms will be submilh:d
                   signoo foms:.              submilled ,lIxi
                                                          lind m;eintrained
                                                               mainuain('d atnt tJl~
                                                                                th~ Accounttng
                                                                                      AccountIng office by aW award   )'e~
                                                                                                                 :ITd year.
              Atlhe   c.-nd of each
              At the ('nd                     year the (\cc.Olmting
                                cadI award ycru                       o'fficc "ill
                                                       Accounting office             re,~e\~ rmd
                                                                              \\ill revie"   tmd disburse
                                                                                                 disbul'S£: outstanding
                                                                                                            outBlundi ll£
              Title rv   cn.-<lil
                            . balun\.'C:i
                    IV cr..:dil   balal\C'Cs.

              CO l1lment.~ . The lJnl\'ers
              C'lI11lllCnLQ.               iry has submlHcd
                                 l1nl\;ersiry                               of2000~200 I and 200 1·2002
                                                   submmro to I'SA a review of2000·:WO           1-2002
              lisen! year!
              fiscal  ycnl'3 crcrut      balnnces by term,
                              c.rt:dll baluocc3          term. This review
                                                                         rcvie ...v showed'    whell the credi t bahmcc
                                                                                    ~h<lwcd ' when                  balance: occurred.
                                                                                                                             occurred,
              program tJ1m        cuu.o;ed the credit b.1J011(:e.
                           that caused                                 dat~ Pilld
                                                          b.1laIk:c. datt:   p.Hd to the !itudcIIl
                                                                                           studenl or an 3.n lndi
                                                                                                             wdi .ation
                                                                                                                    alion that
                                                                                                                          mal 1l     '''ill
                                                                                                                               tt \\It$
              3bsorbcd. l·or
              ::Ibsorbcd     ~or frv      2000~2001 the fSA
                                      V 2000-2U()1            rSA required
                                                                      n:quircd the Unh'crsit)
                                                                                      Uni\'Cfsit) 10    ronnulale
                                                                                                    to formu    la ic a policy for timely
              ra~l1lcnt        ride
              r O}I1lCr'lt o( ri           credit ba!Q.Ilcc:,.
                                   de IV crcdat     n3IaIlCC!!. ThisThi~ was OOl11pll!led
                                                                                C(Jl11pl~te d by the llnncr!ilty.:l!t
                                                                                                       IJnl\crslt~. lls shown flbo\'e.
                                                                                                                                  abQ\c.
              and
              anc.l no
                    n() nud
                        uud itiunll
                             iti(ln: lll correctjve'  rnea.surt.s were
                                         correc tj ve 1llC'8S\lrC::!I wert' required ._ The
                                                                                         The: Cni\'Crsity
                                                                                               Uni\'"Crsity is still working
                                                                                                                       working with
                                                                                                                                 \\itb the
              rSA
               I-SA to resoJ\'t'
                         resol ...·c 2001
                                     2001·2002
                                            -2002 and     2OO2~2003 credit balance (Judit
                                                    nOO 2002-2003                            Iludit find  ings.
                                                                                                    fi ndings.

              Fiilldil1~
                 lJ diJ1~   6: UV.'s S:Hisfa~tolj
                               UVl's Sa tisfa Nory .'\cuuclDie
                                                   Acut.lcmic P rogrc,:~
                                                               Pr()g rc~'.i Iloliey
                                                                            Policy W llS 1101
                                                                                    wu.s      uni f(lr
                                                                                         nOI ulli      llll~ llPIJli
                                                                                                  ful"lnl)           et.l.
                                                                                                             ll Plllieti.

              Response:   h~ Uni
              Responsc' I he: Un iv(!nm)     r.:oncur;s
                                  \'(:1'S11) cuncUJ'    with the
                                                     "S wllh t.he findrng
                                                                  lindlng and w          with the-
                                                                                Ill work wah
                                                                              will            tJle FSA on the
              rcco nllllClldtlllOns.
              rt'CollllllCndtlllOns.


              Action: Whell comparing
              Action:                                     R ~gi':\tr.lr · s office
                                     compruin.g the Rcgislrtlr's            officI: and the FiFiO!tocial
                                                                                                nanc ial Ald Aid oflice
                                                                                                                  oOice procedures \\ilh\\oilh
              respect to
              rupeel     La s:Jt isr:1clory academic progress (~AP)
                            s;:n isfhcto1"Y                                 ( ~A.P )., it "as ~pparcn     l thullhe
                                                                                              3PfXl1'enlthilt    the Registrar's    of1i~e's
                                                                                                                      ncgistrnr's ofticc's
              \vas more Sln
              ",11!         ~tri n!!;..:nt.
                                  ll ~'Cnt. TheThe: Regl:)uar's
                                                     RCgJ::,uar' ooffice
                                                                      ffice. mOllltOll!d
                                                                               monitored SAP on     I.ln a sc:rnc!)tcr
                                                                                                           semester basis. wrule
                                                                                                                               while lhe
                                                                                                                                      the
               ri nancial
               fi  nancia ll\id
                            Aid ofii          did il
                                         c.'C LliJ
                                    oni(.'l;!          yearly per 34 (".1·.R
                                                    it yearl)'                                           Fin:mclaJ Aid office has '",-en
                                                                                    668.J4(e). The Finandal/\id
                                                                           C I'.R 668.J4(e),                                            IX:\!r1
              '''''orking
              working \\1lh
                          wuh lnto In lormauon
                                          rmatlon Technology
                                                       Technolog)' 10   to (('WTlle
                                                                             rcWt'l tc thc:annual     rel~)rl progra
                                                                                        the Moual report       program m 1100 run
                                                                                                                              nul by
                                                                                                                                  h)'
              semester. In doing thIS        lhis proces!!.
                                                   process. the)'    an: abo
                                                              they are           udd r~ing ,weaknesses
                                                                            ah,o addrt!SSing    ... ealrnesscs withiu      thc program th<lt
                                                                                                                 v.<ith.tn the            thill
              are not compliam ...with
              arc                          vith the institutional
                                                       instItutional policy.
                                                                          polic-y. This progmm
                                                                                           program upd'ltC
                                                                                                        upd"ltC M!lo
                                                                                                                 M!> lin
                                                                                                                      nn ;mlicipaloo
                                                                                                                          anticipated
              completion
              complelion date  datI! orof April 2005.1005.

                 review of lh~
              A reV'lcwof      th~ Inst
                                      Instllutlonnl
                                          ltutlonul SntlsfnCIOr)
                                                    SOllsfE!CIOr; Aea.detn;c
                                                                  Aeademic prQgTeS.5
                                                                             pn>brress policies
                                                                                        pol icics for
                                                                                                   (or completeness
                                                                                                       wmpleltness and
              accunrcy
              IlCCur.ICY \,      Ill.: completed by the Dtrt.:tor
                          \\ ill be                        Director of Admissions,
                                                                        Admissions. the Rc{!
                                                                                          Rcgiumr
                                                                                               istrtlr and the Director
                                                                                                               nircclor of
              Hn~lllcial AJd.
              l·in3t\cial AJd Changes                 poliCies \\ill
                                    t'hilnges to the POUCICS         ~ reflected
                                                               \\ill he ~ncc t cd in the 2005·2006 Carolog.
                                                                                                        Cam log.

              Find inj! 7: T
              FindlO::!    l11t  R~Rb(n.r·:"Oi Ofl'icc
                             h t H.egbll'llr'l' Offi ce did not
                                                            uo l rt:IKlrt
                                                                 rCJHl r t .student       Ius dmnK('s
                                                                                    st ,ltU]
                                                                           s tudCnl Mil                       n accura
                                                                                              chun R('s in lian Dccunnete or
                                                                                                                          Or
              tim ely mnnner.
              timely  mnnnc r,

              Rcspon.~ . rhl.!
              Rcspon.~.  Ih~ UniversIty
                               Unhcrsit~ concur;
                                         concu~ \\ilh                  will "
                                                       tbe fmd ing and Will
                                                 \\jlh thc                     O r~ with
                                                                            \\-orl  wilh the I-SA
                                                                                             FSA on the
                                                                                                    Lhe
              rt:Commcndations.
              recommendations.

              Actinn·
              Act             Unive rsity' s procc!\slIIg
                  inn' The University'       proccsslllg of the SSCR  SSC lt WllS modified         ~1ay 2003. Tht
                                                                                   nlodifi ed in May           Th~ report wn.
                                                                                                                           wos...
              plat ~d under tl1e
              placed                respon!;ihilit)
                               the respon5i  hilit) of Ihl!
                                                        th\: Regislr'olt
                                                             Rcy.islrM and changed from an manunl dam       dm:l collection
                                                                                                                 collcction
              opcralion   to an
              opcnllk'l n tl)     declJonic procc'\~.
                              all electronic proce... ~. Smc('
                                                         Smce lhe the change IIIU1 proccs~ing.
                                                                                   procc!o...-ing. the report meets
                                                                                                              mtelS or exceeds
                  recom mended 30 dny
              the recommended           day completion
                                             complelJon from fro m reccipt
                                                                      receipt 10 retum 1 10   the Secretary ThiS
                                                                                          0 Ihe                   findin~ wus
                                                                                                             Tlus linding,
                  reoccurring
              not reoccurri   ng in the 2003 Single
                                                  inglc Aud
                                                         A\lditit (Ilod. ~s ofthl~
                                                                   md. ilS  Oflhl~ date.
                                                                                    date . the Uru\'crsity
                                                                                                 University has
                                                                                                            Iws n{I
                                                                                                                no ind icat ion
                                                                                                                    indication
              Ihnt
              that 1l w1ll h<"
                   It will be ;J finding
                                 fi nding,"
                                         In 20Q.l,
                                            2004.




                                                                                                                                                  ``````



                                                                            23
University of the Virgin Islands                                                                                                              Final Report 

Administration of Title IV                                                                                                               ED/OIG A02-E0003





                      r..:spcct to the grad
              With rl.!.spcct           gr.iI.<luHtc ~(u dcnts being
                                               uate :.hldcnts  bei ng classified as ........
                                                                                         "" ithdm\
                                                                                             ithdrawn. .·n·'.. insh::ad
                                                                                                               instead of··gradullted",
                                                                                                                        of"gradu:ltcd",
                   BIlll..IlCr System
              thl' Billlller
              the                              modlficddIn
                               SysteJ11 was mowfi          in 2004 to correct aQ problem thol   that had pre\~o         u I)' caused a
                                                                                                                 prevlousl)'
              nurnb.:r
              number or    of graduated
                               graJuJled students 10 ho\'cho\·e a SU!IlIS
                                                                  status of withdrawn.
                                                                            withdrnwn. TIle    TIlt' University is confident that    thai
              tills is
              tlus           longcI an issue.
                    IS no longer        issue,

              F indilt~ 8: UVI
              Findillg        UV I d  ditl         c:olUpl) ~
                                        id not cflmr.i.\      ~\ ilh   cS lahlishcd duc
                                                                  itll cslahli]hcd  tlu e d       rur .s u bll1i~jun
                                                                                            ates fur
                                                                                          cJ:lICS          bl11 i !J~ i on of  il~ Single
                                                                                                                           o r its Si ngle
              A ucJi (t RCllII
              AmJi      Re llllrb
                               l-b. :lIIcJ  i.s IInl
                                    :1111.1 is  nn l fina
                                                      ri rm nci
                                                            nci:tally  responsible.
                                                                  lly rc"ponsilJle.

              Rcspon."OC. I h"
              Response;     he UnivcfSlt):   Conc~ "ith
                               Uni \,cffillY CnnCUfi \\ ilh the linding
                                                                tinding and will W(Jrk
                                                                                 work with the FSA
                                                                                               rSA on Ihe
                                                                                                      the
              rt:C(llllnlt: nd:l t ion:l:.
              rcccllmm:ndlilions.

              Th~ Un i ver~it"
              The U"j"'cniit)'         had severnl
                                       hud  scve:rn l external           im(, mJ l influences that co.u:.ed.
                                                      c:o: lcm:l' :md imcm.ll                            Clllb(-d. It        nClI lac
                                                                                                                        1.(1 not
                                                                                                                   II l(I         be Inan
              compliance
              compliance- with                Sillgl~ Audll
                                  \"ith the Sillgle    Audit Act. In 1999          therc '-\
                                                                            199') there  Was      nil unC"XfX.-'
                                                                                             HS lIll  unexpected       chan~c in external
                                                                                                                ClOO c;.hW1~\!         C){lcmal
              IlUdilors thut
              :lUditors                             Uni \ crs ity's ab
                             thllt impacted the Unlvers                rlb ility 10 ~ubmll the audn
                                                                                 to submulhe               tunely. Ine ocwauditor-s
                                                                                                     audit tt.mely.             l\Cwauditor's
              tlofamiharlj "it"
              tlDfamlLLarl}        ..,ith the Um\'ersity's
                                               Umversiry's opcrauons,
                                                                 opcrauons. coupled v>llh   \o\.ilh the
                                                                                                    Lhe lateness with which the audi        nudi lt
              c('lnll1~cll ccd. contributed
              conullcnccd.                                   l'antiy to the tnrdincli$.
                                                   sism fifil,:nnu),
                                    cllOtributcd si,!;ni                                             UnivcrsllY during thi:s
                                                                               tnrdinc, . The Universuy                         this lime
                                                                                                                                      time also
                                                                                                                                            a.lso
              experienced n high wmo\'cr    Itlmovcr In     the federal
                                                        in thc   rederal Contracts 3nd   3.nd GrWlts      Office \\hich
                                                                                                  Jnmt:s Oflice     \.. hieh imp.actcd
                                                                                                                                imllncu.:u
              i1c.J\ rtsclyon
              adversely        on the completion oftbc  oflhc ~ing.lc
                                                                   il1gh~ Audit
                                                                            Audit TIu:
                                                                                     TIle Universuy
                                                                                           University takesla~es full       responsibility
                                                                                                                   (ull responsibili       ty for
                                                                                                                                               fOT
              the l!Jlatl cn<!~s
                          cnc:ss and has     takenn tOe n~')sary
                                        h;iS lake          n~5>:ary steps 10 nunimizc
                                                                                    nun imizc future
                                                                                                   fu ture dduys
                                                                                                           dcltl)s 10In the publishing of
              O\lr .Sinl:llc:
              our      ingle Audh.
                                Audit.

              11lc   L'nivcrsit) has taken several
              TI le lni\'ersil)                       ';e \'eraJ ilcUons
                                                                 ncUons over
                                                                           OVC'r 111(' l~t lwO
                                                                                   UIC IOSl        years 10 improve the timeliness of
                                                                                              two )cars
                   SInsle Audi
              its Single    Auditt Reports. fllen:              h ~'Cn
                                                        rtlCrc hns  b...:cn Strong    Icadership and tOp
                                                                             strong leadership           top dO\
                                                                                                              down..ll :."Upport
                                                                                                                       support in
              compl~tion of this task. 1
              completion                                    U ni \'e~IlY hu.
                                                    'I he Univcr.sIlY     has.. increased rC'jources.
                                                                                               resources, both
                                                                                                           bol11 staff and other
              resourct!!>, 10
              reSOuTce;,     1.0 heir
                                 help Inin the limely
                                                    timely comp      letion of
                                                               complo.::tion   o(lhc   audtt This efion
                                                                                   the :uxiIt          effon hns
                                                                                                              hilS resulted 1Il      the
                                                                                                                                  ITltht:
              Uni\crsi
              Uni \crsil, l) subnl   itl inll, fifi"t!
                              su bmitting          \ l! !)msle
                                                           mgle Audits
                                                                  AudItS to lhe the Federol
                                                                                     Fcdcrnl Clearinghouse ill    in 11a litt  le o\'cr
                                                                                                                          lill ie Over tWo
                                                                                                                                        t"'O
              )e~!TS The University
              ye:lTS.          Lnivcrsity Board   Boilrd ofTrustecg
                                                             of rrustec3 [Ipf'lro\'cd
                                                                            [JPfltI1\'cd the:
                                                                                         the crcation
                                                                                                creation of an Internal
                                                                                                                Interna l Auditor position
              \~ h ic h the Uni\crsi
              "hiel!                               currentltl y in the process of fifilling.
                                         ly is currell
                             Uni .. ersily                                                 lling_

                    r~s~et 10
              With resJlI!cI  to the 1999             Repon. the UniversllY
                                        1')99 Audit Rcpon.                                 ~ubmiltc:d the mis~in!t
                                                                       Univcn.tty ha:, !luhmlltc:d              mis~ing ..:omponcnts
                                                                                                                         tumpunents
              10
              to the fedmi
                     Federal Clco.ringhlllJ.'i,C
                                  lcaringh\IUk and .md ant
                                                        anticipates
                                                            icil lfllCll completion
                                                                         complelion by the   me ~nd of Marcht\'larch 200.5
                                                                                                                      2005 , Anitur
                                                                                                                             Anhur
              Anderson,
              Andcrson, LLP \\a.s.       the UniH:csny"
                                  \\;:Lq lhe Un i\c:rs!ly'ss auditor for (Qr the 1t 997            RepOrt and the UnivCNti
                                                                                     q97 Audit Report                  Universityly has
              heen unsuccessful
              hcen  unsuccessful at abmimng          the S " -~A<':
                                          ob13i nmg thl:      -~AC foml forlll thllt
                                                                               lhal ncc(b
                                                                                      nccd.3 lo      ~igncd and filed with (hI!
                                                                                             tu be signed                       lhe
              redc:r~1 Aud.it
              rederI'I         Clearinghou5C. CuttCntl~.
                        Audit CI,-aringhousc.       Currcnll) . lhe the Un                           ~x(:eption.s I1Qled
                                                                             i,"ersity. with the exceptions
                                                                         University.                                        above_hilS
                                                                                                                     nQlcd above.
              no OlIl:.LllnJi
              00  outstandi ng Sint,;lc
                                Sint:;lc Audits. As of the d.1tc   d;tt~ of this leller,
                                                                                   letter. the lt 1nh t:rsit)' i.)
                                                                                                  :nivt:.r:sit>     ~hedu l cd to
                                                                                                                 b. schedulctJ
              complete the 2004 Single Audit withm     within Ille    ninc monlhs
                                                                the nillc    months foUo\\llIg
                                                                                        fOUO\\1Dg the      cnd oltke
                                                                                                      the- end   of the flSCtli
                                                                                                                        fiscal year.
              per the Single Audit Act guidelines.
                                              guideli nC's.

              TIle Ln
              TIU!  Uniivc.r..il} m3 na~ment, ,\nb
                        \'crsil) manJgement.     \\-1th input from aUr                auditor, plans
                                                                         c'(lL1'llU l auditor.
                                                                    our c'(tcrnal              pl.ins 10 implement a
                                                                                                      to lmplement:1
              correcti ve actlon
              corrective                 thaI will
                           action plun thal         address the causes
                                              willaddre.ss       C<1uses of the Iml!    submittuls, iden lify
                                                                                   Inte submlttuls.       tify cffc...'\.'1ive
                                                                                                               c1Tt."Clivt:
              solUlinns
              solut ions and a process for implemcllIing
                                              impltmc:nting thc.<.c   suiulions This
                                                                these SlJlulioms      Thjs collaborative
                                                                                           collaboralive process is     Is 10
                                                                                                                            to
              begi n 10
              bl:wi  In July 2002005- and      he fin
                                      nnd will ht:                commnnicatlon proce~
                                                       on-going comrnuniCilllon
                                                   Eln 1m-gOing                                           th~' extcm.11
                                                                                                betwcen the:
                                                                                       proces:. bC'lY.ccn      eXlcrna l
              auditors find
                        and the
                              the: UniVCNt  ty 0l<U13l;ement_
                                   Univcrslly  managemenl.




                                                                              24 

